TREASURY INSPECTOR GENERAL FOR TXX ADMINISTRATION




                       Taxpayers Residing in the'Hurricanes
                       Katrina and Rita Disaster Areas Were
                        Accurately Identified for Tax Relief



                                           July 31, 2006

                              Reference Number: 2006-40-109




 This report has cleared the Treasury inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax ReturnlRetum Information


 Phone Number       / 202-927-7037
 Email Address      / Bonnie.Hea/d@tigta. treas.gov
 Web Site          / hf fp://www.figta.gov
                                             DEPARTMENT OF THE TREASURY
                                                  WASHINGTON, D.C. 20220




'TREASURY INSPECTOR GENERAL
   FOR TAX ADMINISTRATION




                                              July 3 1,2006


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESSISELF-EMPLOYED
               DIVISION
                              , q k A d ' 5.3'-
 FROM:                        Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report - Taxpayers Residing in the Humcanes Katrina
                              and Rita Disaster Areas Were Accurately Identified for Tax Relief
                              (Audit # 200640026)

This report presents the results of our review to determine whether the Internal Revenue Service
(IRS) correctly identified both individual and business taxpayers affected by Humcanes Katrina
and Rita and accurately placed disaster indicators on these taxpayers' accounts. We also
determined whether the IRS properly prevented notices from being sent to these taxpayers to
collect a balance due.
This review was conducted in conjunction with the President's Council on Integrity and
Efficiency (PCIE) as part of its examination of relief efforts provided by the Federal Government
in the aftermath of Humcanes Katrina and Rita. A copy of the report was forwarded to the PCIE
Homeland Security Working Group, which is coordinating the Inspectors' General reviews of
this important subject.

 Synopsis
Natural disasters can have devastating effects on taxpayers both emotionally and financially.
Hurricane Katrina made landfall at the Central Gulf Coast of the United States on
August 29,2005. It caused unprecedented damage to New Orleans, Louisiana, as well as the
coastal areas of Mississippi and Alabama, and became the most destructive and costliest natural
disaster in United States history. Hurricane Rita followed less than 1 month later and further
damaged New Orleans and the Gulf Coast area of Texas. Together, these Hurricanes affected
millions of taxpayers.
     .. --.


                          Taxpayers Residing in the Hurn-canesKatrina and Rita
               I
                         Disaster Areas Were Accurately Identified for Tax Relief



The IRS has the authority to grant extensions to file certain tax returns and pay certain taxes,
waive penalties, and abate interest for taxpayers affected by natural disasters such as hurricanes.
To provide this tax relief, the IRS identifies taxpayers residing in a disaster area based on their
zip codes and then uses a computer application to place a disaster indicator on their accounts.'
This disaster indicator includes information such as the beginning and ending dates of the
disaster period and a Federal Emergency Management Agency (FEMA) disaster code indicating
which disaster affected the taxpayer. The beginning and ending dates are used to determine the
extent of tax relief that taxpayers receive. In addition, taxpayers may contact the IRS to request
relief and have a disaster indicator manually input to their
accounts.
                                                                                    The IRS correctly identified
The IRS correctly identified taxpayers affected by Hurricanes                    taxpayers affected by Hurricanes
Katrina and Rita and placed disaster indicators on their                            Katrina and Rita and placed
                                                                                    disaster indicators on their
accounts. Disaster indicators properly prevented balance-due                       accounts to provide tax relief.
notices from being issued to affected taxpayers. Systemically
placed indicators accounted for almost all (over 99.9 percent)
of the indicators placed on taxpayers' accounts. These systemically placed indicators had the
correct disaster period beginning and ending dates.
However, manually input indicators, which accounted for less than 0.1 percent of the total, often
had an incorrect disaster period beginning or ending date. We analyzed 1,150 manually input
disaster indicators and identified 779 (68 percent) with an incorrect beginning andlor ending
date. Taxpayers with these indicators on their accounts would have received less tax relief than
they were entitled to.2
In addition, the IRS extended the disaster period ending date twice to grant additional tax relief
for Hurricane Katrina victims3 When the IRS extended this date, accounts with manually input
indicators were not updated. This occurred because the computer program used for the update
identified only those accounts with systemically placed indicators. As a result, the ending date
for 748 disaster indicators4was not properly extended, and the taxpayers with these indicators on
their accounts would not have received the full benefit of the disaster relief provisions. We
advised the IRS of this concern during our review, and IRS management took action to identify
and manually input disaster indicators with corrected ending dates to these taxpayers' accounts.




1
  Throughout this report, we refer to these computer-generated disaster indicators as systemically placed indicators.
2
  Although some date errors extended the relief period, most errors improperly shortened it.
3
  On September 8, 2005, the IRS extended the disaster relief to January 3, 2006. On September 28, 2005, the IRS
extended the disaster relief to February 28, 2006. Near the end of our audit period, there was an additional extension
to August 28,.2006, that was not considered in our review.
  Some of these indicators could also be included in those above that were input incorrectly.
                                                                                                                    2
                      Taxpayers Residing in the Hurricanes Katrina and Rita
            I
                     Disaster Areas Were Accurately Identified for Tax Relief




Recommendations
The Commissioner, Small Business/Self-Employed (SBISE) Division, should coordinate with
the other IRS business units to provide employees with a regularly updated job aid for manually
input disaster indicators and emphasize the importance of using the correct dates for interest and
penalty calculations. In addition, when the IRS extends the disaster relief period, the
Commissioner, SBISE Division, should take appropriate actions to identify accounts with
manually input disaster indicators and update the accounts with the extended ending date.

Response
The IRS agreed with both of our recommendations. The SBISE Division will develop an
enhanced online job aid that will be easily updated for use when manually inputting disaster
indicators. The new version will provide information necessary to correctly extend filing and
payment deadlines for taxpayers who self-identify. The IRS will also issue updated guidelines to
all business units regarding the importance of using the most up-to-date information and dates to
ensure interest and penalties are accurately calculated for taxpayers affected by disasters.
The IRS will create a new systemic account indicator, known as an "S fieeze," that will decrease
the number of manually placed indicators. The new S freeze will be used for limited-scope
disasters when a determination is made that compliance activity should not be suspended; it will
also further enhance the IRS' ability to avoid the errors associated with the self-identification
process and reduce the volume of inputs of manual disaster indicators. The IRS is also
examining the extension process and all manually input disaster indicators in an effort to identify
additional system enhancements. Management's complete response to the draft report is
included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-65 10 if you have questions or
Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 622-59 16.




                                                                                                 3
                              Taxpayers Residing h the Hurricanes Katrina and Rita
                             Disaster Areas Were Accurately Identitied for Tax Relief




                                              Table of Contents


Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 2
          Taxpayers Residing in the Disaster Areas Were Correctly Identified,
          and Systemic Disaster Indicators Were Accurately Placed on Their
          Accounts ....................................................................................................... Page 2
          Disaster Indicators Effectively Prevented Notices to Collect a
          Balance Due From Being Sent ...................................................................... Page 3
          Most Manually Input Disaster Indicators Had an Incorrect
          Beginning or Ending Date ............................................................................ Page 3
                    Recommendations 1 and 2: ................................................a g e 5


Appendices
          Appendix I - Detailed Objectives, Scope, and Methodology.......................Page 6
          Appendix I1 - Major Contributors to This Report ........................................Page 9
          Appendix I11 - Report Distribution List .......................................................
                                                                                                       Page 10
          Appendix IV - Outcome Measure ................................................................Page 1 1
          Appendix V - Management's Response to the Draft Report .......................Page 13
                      Taxpayers Residing in the Hurricanes Katn-na and Rita
                     Disaster Areas Were Accurately Identified for Tax Relief

    ---



                                       Background

Hurricane Katrina made landfall at the Central Gulf Coast of the United States on
August 29,2005, and caused unprecedented damage to New Orleans, Louisiana, as well as the
coastal areas of Alabama and Mississippi. The National Hurricane Center described
Hurricane Katrina as one of the most powerful storms ever to form over the Atlantic Ocean.
Several levee systems in New Orleans collapsed and most of the city was flooded by water,
making this Hurricane the most destructive and costliest natural disaster in United States history.
Less than 1 month later, Hurricane Rita made landfall in Florida and proceeded west to strike
Louisiana and Texas. Hurricane Rita further damaged some of the levee breaches caused by
Hurricane Katrina and again flooded parts of New Orleans. Also, postlandfall damage was
extensive in the coastal areas of southwestern Louisiana and southern Texas.
Because of these 2 Hurricanes, over 430 counties across Alabama, Florida, Louisiana,
Mississippi, and Texas were declared disaster areas. The Internal Revenue Service (IRS) has the
authority to grant extensions to file certain tax returns and pay
certain taxes, to waive penalties, and to abate interest for              Over 430 counties in
taxpayers affected by natural disasters such as hurricanes.           Alabama, Florida, Louisiana,
Due to the large number of taxpayers affected by these                 Mississippi, and Texas were
Hurricanes, and interest expressed by the Senate Finance                 declared disaster areas.
Committee about IRS tax relief efforts, we initiated this
review to evaluate IRS actions to identify affected taxpayers, place indicators on their accounts
for disaster relief, and prevent notices to collect a balance due. In addition, we conducted this
review in conjunction with the President's Council on lntegrity and Efficiency as part of its
examination of relief efforts provided by the Federal Government in the aftermath of Hurricanes
Katrina and Rita.
This review was performed at the Small BusinessISelf-Employed (SBISE) Division Headquarters
in Washington, D.C., and the Modernization and Information Technology Services organization
in New Carrollton, Maryland, during the period November 2005 through March 2006. The audit
was conducted in accordance with Government Auditing Standards. Detailed information on our
audit objectives, scope, and methodology is presented in Appendix I. Major contributors to the
report are listed in Appendix 11.




                                                                                            Page 1
      "--   "




                1
                          Taxpayers Residing in the Hurricanes Katrina and Rita
                1        Disaster Areas Were Accurately Identifled for Tax Relief
     ."." .




                                       Results of Review

Taxpayers Residing in the Disaster Areas Were Correctly Identified,
and Systemic Disaster Indicators Were Accurately Placed on Their
Accounts
The IRS responded quickly and effectively to the Hurricanes Katrina and Rita disasters by
placing disaster indicators on affected taxpayers' accounts. These indicators properly prevented
notices to collect a balance due from being sent to these taxpayers. However, steps can be taken
to improve the processes for future disaster relief efforts.
When a disaster is declared, the Federal Emergency
Management Agency (FEMA) designates specific                      The IRS placed approximately
counties as eligible for assistance. The R S then              12.5 million disaster indicators on
determines if taxpayers in those counties should qualify         individual taxpayers' accounts
                                                                  and approximately 2.9 million
for tax relief based on the severity of the disaster. Once      disaster indicators on business
the IRS determines which counties are eligible for relief,             taxpayers' accounts.
it identifies the zip codes within those counties and
identifies the taxpayers residing in the disaster area
based on the zip codes. To provide tax relief to these taxpayers, the R S then uses a computer
application to place a disaster indicator on their accounts.' Disaster information placed on
taxpayers' accounts includes a numeric FEMA disaster code that identifies the disaster and the
disaster period beginning and ending dates, which are used to determine the extent of tax relief
that taxpayers receive. To identify accounts for disaster relief for Hurricanes Katrina and Rita,
the IRS placed approximately 12.5 million disaster indicators on individual taxpayers' accounts
and approximately 2.9 million disaster indicators on business taxpayers' accounts.
The IRS identified the correct zip codes for Hurricanes Katrina and Rita and accurately identified
taxpayers within these zip codes for disaster relief. We identified the zip codes associated with
the declared disaster counties using both third-party and United States Postal Service data. We
compared these zip codes to those the IRS used and reconciled any discrepancies. We also
obtained computer extracts identifying taxpayer accounts with a disaster indicator for these
Hurricanes and identifying accounts of taxpayers residing within the zip code areas for these
Hurricanes. We analyzed these accounts and determined that the IRS placed the indicators on
the correct accounts.



' Throughout this report, we refer to these computer-generated disaster indicators as systemically placed indicators.
                                                                                                              Page 2
                           Taxpayers Residing in the Hurricanes Katrina and Rita
                          Disaster Areas Were Accurately Identified for Tax Relief



In addition, the disaster indicators the IRS systemically placed on taxpayers7 accounts had the
correct disaster period beginning and ending dates. These systemically placed indicators
accounted for almost all (over 99.9 percent) of the disaster indicators placed on taxpayers7
accounts.

Disaster lndicators Effectively Prevented Notices to Collect a Balance
Due From Being Sent
The disaster indicators are intended to prevent certain notices from being mailed to taxpayers
from the time the indicator is placed on the account until the disaster period ending date. During
the disaster relief period, the IRS wants to prevent any notices that threaten serious enforcement
actions and would worry taxpayers. Our review focused on notices to collect a balance due.'
The disaster indicators effectively prevented balance-due notices from being issued. From the
extract of accounts with a disaster indicator, we researched 45 selected accounts with a balance
due. We identified individual taxpayer accounts and business taxpayer accounts that would have
had a balance-due notice issued if the disaster indicator had not been in effect. None of the
identified accounts had a balance-due notice issued while the disaster indicator was in effect.

Most Manually Input Disaster lndicators Had an Incorrect Beginning
or Ending Date
Taxpayers affected by a disaster whose accounts are not systemically identified for disaster relief
by the IRS may contact the IRS to request relief or "self-identify." Taxpayers who self-identify
will have a disaster indicator manually input to their account by an IRS employee. The disaster
period beginning and ending dates are input to taxpayers' accounts along with the disaster
indicator. The beginning date should be the date the disaster occurred, as determined by the
FEMA. The ending date is established by the IRS. These dates determine the period for which
the taxpayer receives tax relief.
The disaster period dates on manually input indicators for Humcanes Katrina and Rita were
often incorrect. The taxpayers with these indicators on their accounts would not have received
the fill protection of the disaster relief provisions to which they were entitled.3 Although these
incorrect dates involved only a small number of taxpayers (less than 0.1 percent of the indicators


2
  This included the following notices issued to individual taxpayers: Computer Paragraph (CP) 501 First Notice -
Balance Due, CP 503 Second Notice - Balance Due, and CP 504 - Notice of Intent to Levy. This also included
Notice CP 504 - Notice of Intent to Levy for business taxpayers.
  Although some date errors extended the relief period, most errors improperly shortened it. When filing and
payment due dates fall within the disaster relief period, the disaster coding should prevent the accrual of interest and
certain penalties for the disaster period. In addition, certain notices to collect a balance due should be suppressed
fkom the time the indicator is input until the disaster period ends.
                                                                                                                Page 3
                       I            I            _                 P                  -             -             <




                          Taxpayers Residing in the Hurricanes Katrina and Rita
                         Disaster Areas Were Accurately Identified for Tax Relief

      *-




were input manually), those with manually input indicators would be those who contacted the
IRS to self-identify themselves as affected by the disaster. These taxpayers would likely be
those who most needed tax relief.

Manually input indicators often had incorrect dates
Disaster indicators manually input to taxpayers' accounts were often input with incorrect disaster
period beginning and/or ending dates. Of the 1,150 manually input indicators we analyzed,
779 (68 percent) were input with an incorrect beginning and/or ending date.4
Human error caused most of the incorrect dates. For example, some employees input the current
date as the beginning date rather than the actual date of the disaster; other employees input old
ending dates rather than revised ending dates. In addition, some errors were caused by
misleading IRS procedures. For Hurricane Katrina, one of the FEMA disaster areas had a
beginning date different from that for the other three areas. However, most IRS guidance issued
to employees for Hurricane Katrina provided only one beginning date - the one that applied to
the three areas.

The IRS did not svstemically extend the disaster period ending date on manuallv
input indicators
The disaster period ending date for Hurricane Katrina was extended twice by the IRS to grant
affected taxpayers additional tax relief.5 However, when the IRS updated the disaster period
ending dates on taxpayers7 accounts, those with manually input disaster indicators were not
updated to the revised ending date. Of 1,825 disaster indicators manually input for Hurricane
Katrina through mid-November 2005,748 (41 percent) had an incorrect ending date6because the
IRS did not systemically update it.
The disaster period ending date needs to accurately reflect the date established by the IRS.
When the IRS extended the ending date for Hurricane Katrina, taxpayers' accounts should have
been adjusted accordingly for all taxpayers eligible for relief, including both those with a
systemically placed indicator and those with a manually input indicator.
The IRS used a computer application to update the disaster period ending date for taxpayers
affected by Hurricane Katrina. To identify the accounts needing a revised ending date, it used
the same data files used to systemically place the initial indicators on taxpayers' accounts. As a
result, ending dates for accounts with manually input indicators were not updated.

4
  See Appendix IV for details on how this figure was calculated.
  On September 8,2005, the IRS extended the disaster relief to January 3,2006. On September 28,2005, the IRS
extended the disaster relief to February 28, 2006. Near the end of our audit period, there was an additional extension
to August 28,2006, that was not considered in our review.
6
  Some of these indicators are also included in the 779 figure noted earlier in this section of the report. See
Appendix IV for details on the final calculation of our outcome measure.
                                                                                                             Page 4
                        Taxpayers Residing in the Hurricanes Katrina and Rita
                       Disaster Areas Were Accurately Identified for Tax Relief
    ,"-




Management Action: We advised the IRS of this concern during our review, and R S
management took action to identify and manually input on these taxpayers' accounts disaster
indicators with corrected ending dates.

Recommendations
Recommendation 7: The Commissioner, SBISE Division, should coordinate with the other
R S business units to provide employees with a regularly updated, online job aid to use for
manually input disaster indicators. This job aid should summarize all current disasters, along
with their beginning and ending dates. The Commissioner, SBISE Division, should also
coordinate with the other business units to emphasize to employees the importance of using the
correct dates to ensure interest and penalties are accurately calculated for taxpayers affected by
disasters.
          Management's Response: The R S agreed with this recommendation. The SBISE
          Division will develop an enhanced online job aid that will be easily updated for use in the
          manual input of disaster indicators. Other R S business units will be consulted to ensure
          their needs are met. The new version of the job aid will provide information necessary to
          correctly extend filing and payment deadlines for taxpayers who self-identify. The R S
          will also issue updated guidelines to all business units regarding the importance of using
          the most up-to-date information and dates to ensure interest and penalties are accurately
          calculated for taxpayers affected by disasters.
Recommendation 2: When the R S extends the disaster relief period, the Commissioner,
SBISE Division, should take appropriate actions to identify accounts with manually input
disaster indicators and update the accounts with the extended ending date.
          Management's Response: The R S agreed with this recommendation. The R S will
          create a new systemic account indicator, known as an "S freeze," that will decrease the
          number of manually placed indicators. The new S freeze will be used for limited-scope
          disasters when a determination is made that compliance activity should not be suspended
          and will further enhance the R S ' ability to avoid the errors associated with the
          self-identification process and reduce the volume of inputs of manual disaster indicators.
          The R S is also examining the extension process and all manually input disaster
          indicators in an effort to identify additional system enhancements.




                                                                                              Page 5
      ,




              t
               I
                         Taxpayers Residing in the Hurricanes Katrina and Rita
               I
              I         Disaster Areas Were Accurately Identified for Tax Relief




                                                                                                 Appendix I

          Detailed Objectives, Scope, and Methodology

The overall objective of this review was to determine whether the Internal Revenue Service
(IRS) correctly identified both individual and business taxpayers affected by Humcanes Katrina
and Rita and accurately placed disaster indicators on these taxpayers' accounts. We also
determined whether the IRS properly prevented notices from being sent to these taxpayers to
collect a balance due. To accomplish our objectives, we:
I.        Determined if the IRS identified the correct zip code areas for disaster area coding.
          A. Identified all counties affected by Hurricanes Katrina and Rita based on memoranda
             issued by the Federal Emergency Management Agency (FEMA).
          B. Identified the zip codes associated with these counties using United States Postal
             Service data and other third-party data.
          C. Matched the zip codes identified in Step I.B. to the zip code lists generated by the IRS
             as of October 13,2005, and evaluated any discrepancies.
11.       Determined if the IRS systemically1placed disaster indicators on the correct individual
          and business taxpayers' accounts.
          A. Obtained computer extracts from the IRS Individual Master File (IMF)2and Business
             Master File (BMF)3of all accounts with a disaster indicator for any of the six FEMA
             disaster areas for Humcanes Katrina and Rita.4 For each FEMA disaster area, we
             computer identified those accounts outside the IRS zip codes in Step I.C. We
             performed additional computer analyses to identify the accounts with potential
             erroneous systemically placed indicators and then researched and evaluated these
             accounts to determine if the indicators were appropriate.
              1. Evaluated small random interval samples of IMF accounts. For example, there
                 were approximately 4 million IMF accounts extracted with a disaster indicator for

  The IRS identifies taxpayers residing in a disaster area based on their zip codes and then uses a computer
application to place a disaster indicator on their accounts. We refer to these computer-generated indicators as
systemically placed indicators.
  The IRS database that maintains transactions or records of individual tax accounts.
  The IRS database that consists of Federal tax-related transactions and accounts for businesses. These include
employment taxes, income taxes on businesses, and excise taxes.
4
  The FEMA disaster area codes for Hurricane Katrina were FEMA 1602 - Florida, FEMA 1603 - Louisiana,
FEMA 1604 - Mississippi, and FEMA 1605 - Alabama. The FEMA disaster area codes for Hurricane Rita were
FEMA 1606 - Texas and FEMA 1607 - Louisiana.
                                                                                                          Page 6
    "    -

I
                            Taxpayers Residing in the Hurricanes Katrina and Rita
I                 t
                  i
                           Disaster Areas Were Accurately Identified for Tax Relief
        ---


                      FEMA code 1602. We performed various computer analyses to identify
                      1,719 accounts with potential erroneous systemic indicators and evaluated a
                      sample of 30. We performed similar steps to sample from the other five FEMA
                      disaster areas. This sampling method was sufficient for our test purposes, and we
                      did not plan to make projections.
                 2. Due to the small number of BMF accounts with potential erroneous systemic
                    indicators, evaluated them all. For example, there were approximately
                    600,000 BMF accounts extracted with a disaster indicator for FEMA code 1603.


                      steps for the other five FEMA disaster areas.
              B. Obtained IMF and BMF extracts of accounts with an address in the IRS disaster zip
                 code areas in Step I.C. but without the related disaster indicator. For selected FEMA
                 disaster areas, we performed computer analyses to identify accounts that were
                 potentially missing an indicator. We then researched random interval samples of
                 these accounts to determine if the IRS should have placed a systemic indicator on the
                 accounts. This sampling method was sufficient for our test purposes, and we did not
                 plan to make projections.
                  1. For selected FEMA disaster areas, evaluated a random interval sample of 20 IMF
                     accounts that were potentially missing an indicator. For example, fiom
                     approximately 6,000 IMF accounts extracted for FEMA code 1603, our computer
                     analyses identified 465 that were potentially missing the indicator. We selected
                     and evaluated a random interval sample of 20 accounts. Due to time constraints,
                     we performed similar steps for 4 additional FEMA disaster areas, reviewing a
                     total of 100 accounts.
                 2. From each FEMA disaster area, evaluated a random interval sample of 30 BMF
                    accounts that were potentially missing the indicator. For example, there were
                    approximately 9,200 BMF accounts extracted for FEMA code 1603. Our
                    computer analyses identified approximately 8,400 of these with a potential
                    missing indicator. We selected and evaluated a random interval sample of
                    30 accounts. We performed similar steps for each of the other 5 FEMA disaster
                    areas, reviewing a total of 180 accounts.
              C. Determined that the data extracted in Step 1I.A. and Step 1I.B. were valid. We
                 performed computer analyses and scanned the data to determine if the extract met our
                 criteria and if the data appeared valid. We researched small samples of accounts on




                                                                                                Page 7
                         Taxpayers Residing in the Hurn-canes Katrina and Rita
                        Disaster Areas Were Accurately Identified for Tax Relief



             the Integrated Data Retrieval System (IDRS)' to ensue the data in the critical extract
             fields matched that on the IDRS.
111.    Determined if the disaster indicators on individual and business taxpayers' accounts had
        correct disaster period beginning and ending dates. We computer analyzed accounts
        from the Step 1I.A. extracts to identify those with incorrect beginning or ending dates.
        We researched the IDRS to evaluate the accounts identified.
        A. Computer analyzed the disaster period beginning and ending dates for both
           systemically and manually input disaster indicators on IMF and BMF accounts in
           three FEMA disaster areas.6 We then evaluated the accounts with incorrect dates.
        B. After identifying problems in Step 1II.A. with the ending dates for manually input
           indicators, computer analyzed the ending dates for those indicators for all IMF and
           BMF accounts in the four FEMA disaster areas for Hurricane Katrina. We then
           evaluated the accounts with incorrect dates to identify those that were not updated
           when the IRS extended the disaster relief period.
IV.     Determined if balance-due notices were suppressed by the disaster indicators. We
        considered individual taxpayer notices Computer Paragraph (CP) 501 First Notice -
        Balance Due, CP 503 Second Notice - Balance Due, and CP 504 Notice of Intent to
        Levy. We considered business taxpayer notice CP 504 Notice of Intent to Levy.
        A. From the Step 1I.A. extracts, identified accounts with a balance due. We researched a
           limited number of these on the IDRS and identified 23 individual taxpayer accounts
           and 22 business taxpayer accounts that would have had 1 of the specified notices
           issued if the disaster indicator had not been effective. These accounts included a
           variety of FEMA disaster areas and all of the specified notices. The total population
           of accounts that would have had one of the specified notices due to be issued during a
           disaster relief period was not known. This selection method was sufficient to
           determine if the notices were suppressed.
        B. Evaluated the accounts in Step W.A. to determine if the specified notices had been
           suppressed.




5
  The IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer's account records.
6
  We evaluated FEMA disaster code areas 1602, 1604, and 1607 for IMF accounts and areas 1602,1603, and 1606
for BMF accounts.
                                                                                                        Page 8
                    Taxpayers Residing in the Hurricanes Katrina and Rita
                   Disaster Areas Were Accurately Identified for Tax Relief




                                                                           Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Scott A. Macfarlane, Director
Richard J. Calderon, Audit Manager
Carola Gaylord, Lead Auditor
Sharla Robinson, Senior Auditor
Steven Stephens, Senior Auditor
Tracy Harper, Auditor
Robert Carpenter, Information Technology Specialist




                                                                                   Page 9
                    Taxpayers Residing in the Hurricanes Katrina and Rita
                   Disaster Areas Were Accurately Identified for Tax Relief




                                                                           Appendix Ill

                         Report Distribution List

Commissioner C
Office of the Commissioner - Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Commissioner, Wage and Investment Division SE:W
Chief Information Officer 0S:CIO
Deputy Chief Information Officer 0S:CIO
Deputy Commissioner, Small BusinessISelf-EmployedDivision SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Communications, Liaison, and Disclosure, Small BusinessISelf-EmployedDivision
   SE:S:CLD
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS;O
Office of Management Controls 0S:CFO:AR:M
Audit Liaisons:
       Chief Information Officer 0S:CIO
        Senior Operations Advisor, Wage and Investment Division SE:W:S
       Chief, GAO/TIGTAlLegislative Implementation Branch SE:S:CLD:PSP:GTL




                                                                                   Page 10
                          Taxpayers Residing in the Hurricanes Katjr'na and Rita
               f
                         Disaster Areas Were Accurately Identified for Tax Relief

--                                                -                    P




                                                                                                 Appendix IV

                                       Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
    Taxpayer Rights and Entitlements' - Actual; 1,470 taxpayers' accounts with an incorrect
    disaster period beginning and/or ending date (see page 3).

Methodology Used to Measure the Reported Benefit:
Accounts for which the beginning and/or ending date was incorrect due to input errors:
Our extract of Individual Master File (IMF)2accounts identified those with disaster indicators for
Hurricanes Katrina and Rita as of November 13, 2005. From this, we analyzed the disaster
period beginning and ending dates for 971 manually set disaster indicators for 3 Federal
Emergency Management Agency (FEMA) disaster areas.3 We identified 690 taxpayer accounts
with an incorrect beginning and/or ending date. Of these, 57 also had update errors. Therefore,
633 IMF accounts had input errors only.
Similarly, our extract of Business Master File (BMF)4accounts identified those with disaster
indicators for Hurricanes Katrina and Rita as of IVovember 20,2005. We analyzed the beginning
and ending dates for 179 manually set disaster indicators for 3 FEMA disaster areas.' We
identified 89 taxpayer accounts with an incorrect beginning and/or ending date.
Therefore, 722 (633 + 89) IMF and BMF taxpayer accounts had input errors only.




' Although some date errors extended the tax relief period, most errors improperly shortened it. Therefore, we
considered Taxpayer Rights and Entitlements to be the outcome of this condition.
  The Internal Revenue Service (IRS) database that maintains transactions or records of individual tax accounts.
  The disaster areas analyzed for IMF accounts were for FEMA codes 1602, 1604, and 1607.
4
  The IRS database that consists of Federal tax-related transactions and accounts for businesses. These include
employment taxes, income taxes on businesses, and excise taxes.
  The disaster areas analyzed for BMF accounts were for FEMA codes 1602,1603, and 1606.
                                                                                                           Page 11
     *-




                         Taxpayers Residing in the Hurricanes Katrina and Rita
                        Disaster Areas Were Accurately Identitied for Tax Relief



Accounts for which the ending date was incorrect because it was not properly updated:
Of the 1,659 accounts with manually set disaster indicators for Hurricane Katrina, 724 had a
disaster period ending date that should have been ~ p d a t e dbut
                                                               , ~ was not, when the Internal
Revenue Service (IRS) systemically updated the ending date to February 28,2006. Of the
724 IMF accounts which should have been updated but were not, 57 also had input errors.
Therefore, 667 IMF accounts had update errors only.
Similarly, our extract of BMF accounts identified those with disaster indicators for Hurricanes
Katrina and Rita as of November 20,2005. Of the 166 accounts with manually set disaster
indicators for Hurricane Katrina, 24 had a disaster period ending date that should have been
updated, but was not, when the IRS systemically updated the end date to February 28,2006.
Therefore, 691 (667 + 24) IMF and BMF accounts had update errors only.
Total number of accounts for which the beginning andlor ending date was incorrect:
             722     M F and BMF taxpayer accounts with input errors only
             691     M F and BMF taxpayer accounts with update errors only
              57     M F taxpayer accounts with both input and update errors
            1,470 Total M F and BMF taxpayer accounts with input andlor update errors




6
 Disaster ending dates other than February 28,2006, input prior to the IRS systemic update should have been
updated.
                                                                                                        Page 12
;                   Taxpayers Residing in the Hurricanes Katrina and Rita
      I
I
                   Disaster Areas Were Accurately Identified for Tax Relief




                                                                                                            Appendix V

    Management's Response to the Draft Report


                                             DEPARTMENT OF THE TREASURY                    RECEIVED
                                                                                                             -
                                               I N T E R N A L REVENUE SERVICE
                                                   WASHINGTON. D.C. 2.0224                 JUN 2 9 2&6
                 COMMISBIONER
     SMALL DUSlNESS/SlLF.LMCLOYlD DIVISION


                                                       June 21,2006



            MEMORANDUM FOR DEPUTY INSPECTOR GENERAL FOR AUDIT

            FROM:                      Kevin M. Brown    Xh-
                                       Commissioner, Small BusinesdSelf-Employed Division

            SUBJECT:                   Draft Audit Report - Taxpayers Residing in the Hunicanes
                                       Katrina and Rlta Disaster Areas Were Accurately ldentifiedfor
                                       Tax Relief (Audit # 200640026)

            We have reviewed your draft audit report, "Taxpayers Residing in the Hunicanes
            Katrina and Rita Disaster Areas Were Accuratelv ldentifiedfor Tax Relief. We
            appreciate your acknowledgment of our timely and effective response to provide
            taxpayers with much needed relief in the aftermath of Hurricanes Katrina and Rita.
            These actions resulted in correct placement of systemic disaster indicators on over
            99.9% of affected taxpayers' accounts.

            We also concur with your two recommendations to assist us in ongoing enhancement of
            our disaster assistance program.

            The IRS' goal is to provide consolidated web based disaster information on one slte for
            use by all IRS business units and to continue to take steps to improve processes for
            future disaster rellef efforts. We have initiated actions to improve our on-line job aid that
            will provide the detailed infomation necessary to ensure manually extended filing and
            payment deadlines as described in Recommendation 1 are properly input.

            The 9-1 1 Terrorist Attack and Hunicane Katrina are the only disasters during the last
            five years which warranted IRS extension of the original disaster rellef period. In both
            instances, Modernization & Infomation Technology Services (MITS) identified accounts
            with manually input disaster indicators and, via systemlc programming, updated the
            accounts with the appropriate relief timeframes. While the updating of the end date for
            an extended disaster relief period is a very time-consuming process, we will take action
            to identify accounts wlth manually input disaster indicators to ensure these accounts are
            updated as described in Recommendation2.

            Our comments on your recommendations follow:




                                                                                                                 Page 13
       Taxpayers Residing in the Hurricanes Katrina and Rita
      Disaster Areas Were Accurately Identified for Tax Relief




RECOMMENDATION 1

The Commissioner. SBlSE Division, should coordinate with the other IRS business units
to provide employees with a regularly updated, on-line job aid to use for manually input
disaster indicators. This job aid should summarize all current disasters, along with their
beginning and ending dates. The Commissioner, SBISE Division, should also
coordinate with the other business units to emphasize to employees the importance of
using the correct dates to ensure that interest and penalties are accurately calculated
for taxpayers affected by disasters.

CORRECTIVE ACTION

We will work with MlTS to develop an enhanced on-line job aid that will be easily
updated for use in the manual input of disaster indicators. Other IRS business units will
be consulted to ensure their needs are met. We will replace the current job aid wRh a
new version that provides inforhation necessary to cokctly extend filing and payment
deadlines for taxpayers who self-identify.

The Commissioner, SBlSE Division, will also issue updated guidance to all business
units reaardina the imoortanceof usina the most UD to date information and dates to
ensure ihat inferest and penatties are accurately dlculated for taxpayers affected by
disasters.

IMPLEMENTATION DATE

January 31.2007

RESPONSIBLE OFFlClALlS)

The Director. Communications, Liaison and Disclosure, SBlSE Division

CORRECTIVE ACTION MONITORING PLAN

The Director. Communications. Liaison and Disclosure. SBISE Division, will advise the
SBlSE Commissioner of any delays in implementingthis corrective action.

RECOMMENDATION 2

When the IRS extends the disaster relief period. the Commissioner, SBISE Division.
should take appropriate actions to identify accounts with manually input disaster
indicators and update the accounts with the extended ending date.




                                                                                             Page 14
       Taxpayers Residing in the Hurricanes Katrina and Rita
      Disaster Areas Were Accurately Identified for Tax Relief




CORRECTIVE ACTION

We have submitted a Request for Information Services (RIS) to create a new systemic
account indicator. known as an 'S freeze". which will decrease the number of manuallv
placed indicators: The new S freeze will be used for limited scow disasters when a '
determination is made that compliance actlvtty should not be suspended. This
additional svstemic indicator will further enhance our abilitv to avoid the errors
associated h t h the self-identification process and reduce ihe volume of inputs of
manual disaster indicators.

SBISE and MlTS are also examining the extension process and all manually input
disaster indicators in an effort to identify additional systemic enhancements.

IMPLEMENTATIONDATE

January 31.2008

RESPONSIBLEOFFlClALlS)

Director. Communications, Liaison and Disclosure, SBISE Division

CORRECTIVE ACTION MONITORING PLAN

The Director, Communications, Liaison and Disclosure, SBISE Division, will advise the
SBlSE Commissioner of any delays in implementing this corrective action.

If you have any questions, please call me at (202) 622-0600 or Beth Tucker. Director,
Communicatiins, Liaison and Disclosure, Small BusinesslSeFEmployed Division at
(972) 308-1676.




                                                                                        Page 15
